/

§

No.

!

IN THE
SUPREME COURT OF THE UNITED STATES

Matthew Jones

-PETITIONER

Vs.
Police Captain Alice Brumblev -RESPONDENT
ON A PETITION FOR A WRIT OF CERTIORARI TO
Delaware Supreme Court_
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI

Matthew Jones
11366 Sussex Highway
Greenwood, Delaware 19950
(302) 349-5251
AzraelLinusSmith@gmail.com

i
r
R

R

Appendix
1. Delaware Supreme Court Order,

1

2. Delaware Superior Court Order

5

3. Complaint Filed By Matthew Jones Against Capt. A. Brumbley

8

EFiled: Jul 06 2020 02:43P
Filing ID 65746703
Case Number 546,2019

IN THE SUPREME COURT OF THE STATE OF DELAWARE
MATTHEW JONES,
v.
STATE OF DELAWARE,

§
§
§
§
§
§

No. 546,2019
Court below: Superior Court
of the State of Delaware
C.A.No. S19C-10-032

The following docket entry has been efiled in the above cause.

July 6, 2020.

Mandate to Clerk of
Court Below. Case Closed.

•*

cc: The Honorable Craig A. Karsnitz
Mr. Matthew Jones
Elizabeth C. Fillingame

Prothonotary
Received Above
By
Date

Date: July 6, 2020
/s/ Lisa A. Dolph
Clerk of the Supreme Court

MANDATE
THE SUPREME COURT OF THE STATE OF DELAWARE
TO:

Superior Court of the State of Delaware:

GREETINGS:
WHEREAS, in the case of:
Matthew Jones v. Capt. Alice Brumbley
C.A. No. S19C-10-032

a certain judgment or order was entered on the 3rd day ofDecember 2019, to which
reference is hereby made; and WHEREAS, by appropriate proceedings the
judgment or order was duly appealed to this Court, and after consideration has been
finally determined, as appears from the Order dated June 5,2020, a certified copy
of which is attached hereto;
ON CONSIDERATION WHEREOF IT IS ORDERED AND
ADJUDGED that the order or judgment be and is hereby AFFIRMED.
/s/ Lisa A. Dolph
Clerk of the Supreme Court
Issued: July 6, 2020
Supreme Court No. 546, 2019

EFiled: Jun 05 2020 08:17A
Filing ID 65678846
j
Case Number 546,2019
'

IN THE SUPREME COURT OF THE STATE OF DELAWARE
MATTHEW JONES,
Plaintiff Below,
Appellant,
v.
CAPT. ALICE BRUMBLEY,
Defendant Below,
Appellee.

§
§
§
§
§
§
§
§
§
§
§
§

No. 546,2019

Court Below-Superior Court
of the State of Delaware
C.A.No. SI 9C-10-032

Submitted: April 3, 2020
Decided: June 5, 2020
Before SEITZ, Chief Justice; VALIHURA and VAUGHN, Justices.
ORDER
After careful consideration of the parties’ briefs and the record on appeal, we
conclude that the judgment below should be affirmed on the basis of, and for the
reasons set forth in, the Superior Court’s well-reasoned decision dated December 2,
2019. At the appellant’s request, we did not consider his reply brief in reaching this
conclusion.
NOW, THEREFORE, IT IS ORDERED that the judgment of the Superior
Court is AFFIRMED.
BY THE COURT:
/s/ Karen L. Valihura
Justice

STATE OF DELAWARE

}
} ss.

KENT COUNTY

}

I, Lisa A. Dolph, Clerk of the Supreme Court of the State of Delaware, do
hereby certify that the foregoing is a true and correct copy of the Order dated June
5, 2020, in Matthew Jones v. Capt. Alice Brumbley, No. 546, 2019, as the same
remains on file and of record in said Court.

IN TESTIMONY WHEREOF,
I have hereunto set my hand and affixed the seal
of said Court at Dover this 6th day of July A.D.
2020.
/s/ Lisa A. Dolph
Clerk of the Supreme Court

I
I

E
E

I

l

. #.
flfEE

EFiled: Dec 03 2019 Q1:38Pl|
Transaction ID 64481836
■
Case No. S19C-10-032 CAK 1

IN THE SUPERIOR COURT OF THE STATE OF DELAWARE

MATTHEW JONES,

^

: C.A. No. SI9C-10-032 CAK

Plaintiff,
v.
CAPT. ALICE BRUMBLEY,
Defendant.
ORDERS ON MOTION TO PROCEED IN FORMA PAUPERIS
AND UPON REVIEW OF COMPLAINT

1) Plaintiff Matthew Jones (“plaintiff’) has filed a complaint against Captain Alice
Brumbley of the Delaware State Police. He has filed a motion to proceed in forma pauperis.
Finally, because he repeatedly has filed frivolous and malicious complaints, he submitted an
affidavit which the Superior Court mandated in Jones v. Dover Behavioral Health Systems.1
2) Plaintiff is indigent. That determination, however, does not mean that the complaint
will proceed. Instead, the Court must review the complaint pursuant to 10 Del. C. § 8803(b). If
the Court finds the complaint to be legally or factually frivolous or malicious, then it does not
allow' the action to proceed.
3) In this complaint, plaintiff alleges many dark and disturbing things, and in particular,
he asserts Delaware State Police molested and/or raped him repeatedly from shortly after his

’2017 WL 3493118 (Del. Super. Aug. 9, 2017).
1

,T3&
,'s^!

Jo*

;

..i

birth in 1986 through high school. He asserts defendant was a Commander of Troop 5 during a
portion of this time period; she did not stop these crimes; and she committed unspecified
criminal acts against him. He alleges defendant violated a large number of federal and state
criminal statutes, case law, and Constitutional provisions.
4) Over the years, plaintiff repeatedly has filed suits in Superior Court and in the United
States District Court in and for the District of Delaware against numerous entities and/or persons,
including police at Troop 7 (as opposed to Troop 5), claiming they committed sexual and other
horrific crimes against him.2
5) The employment of common sense as well as a review of the decisions listed in
footnote 2 leads the Court to conclude the claims are factually frivolous because they are based
on delusional factual scenarios. A claim is malicious when it is abusive of the judicial process. I
find the claims made in the complaint are malicious.
6) Plaintiff has burdened this Court and the District Court repeatedly with suits based

2This list is by way of example and is not intended to be exhaustive: Jones v. Justice of
the Peace Court No. 4, Sussex County, 2017 WL 1312973 (D. Del. Apr. 5, 2017), aff'd, 694 Fed.
Appx. 66 (3rd Cir. 2017), cert, den., 138 S.Ct. 455 (2017); Jones v. Harrington, Delaware Police
Department, 2017 WL 2381271 (D. Del. June 1, 2017), aff’d, 731 Fed. Appx. 162 (3rd Cir.
2018); Jones v. Sussex Correctional Institution, 2017 WL 2872416 (D. Del. July 5, 2017), aff'd.
725 Fed. Appx. 157 (3rd Cir. 2017); Jones v. Delaware Health, 2017 WL 6403014 (M.D. Pa.
Aug. 9, 2017), aff'd, 2017 WL 6403016 (M.D. Pa. Sept. 11, 2017), aff’d, 709 Fed. Appx. 163 (3rd
Cir. 2018); Jones v. Justice of the Peace Court No. 3, Georgetown, Delaware. 2017 WL 4457193
(D. Del. Oct. 5, 2017), aff’d, 714 Fed. Appx. 119 (3rd Cir. 2018); Jones v. Denn, 2018 WL
1061363 (D. Del. Feb. 27, 2018), aff’d, 737 Fed. Appx. 642 (3rd Cir. 2018): Jones v. BridgeviUe
Police Department, 2018 WL 4725280 (D. Del. Oct. 2, 2018), aff’d, 758 Fed. Appx. 235 (3rd Cir.
2019); Jones v. Minner, 2018 WL 4725284 (D. Del. Oct. 2, 2018), aff'd, 752 Fed. Appx. 112 (3rd
Cir. 2019); Jones v. Bauer, 2018 WL 6040256 (D. Del. Nov. 19, 2018); Jones v. Delaware State
Police Headquarters, 2019 WL 569823 (D. Del. Feb. 11,2019), aff’d, 779 Fed. Appx. 834 (3rd
Cir. 2019) (alleging rapes by Troop 7 police); Jones v. Delaware State Police, 2019 WL 6170847
(Del. Super. Nov. 19, 2019) (ORDER).
2

i

l

k

upon these delusional factual scenarios. I forewarn plaintiff that if he files with this Court another
complaint based upon these delusions, he will be subject to the imposition of substantial

l

sanctions pursuant to Superior Court Civil Rule 11.
7) For the foregoing reasons, the complaint is DISMISSED WITH PREJUDICE.
IT IS SO ORDERED THIS

DAY OF DECEMBER, 2019.

cc: Prothonotary's Office
Matthew Jones

~n
<50

|—“

m

{jy~o

i
,

xo
H

i

i

w
j>

Q
OJ

3

03:

oo

cj:

zo

-< .

IN THE SUPERIOR COURT OF THE STATE OF DELAWARE
MATTHEW JONES,

)
)

Plaintiff,

)
)

v.

)C.A. No.
)

CAPT. ALICE BRUMBLEY,

)
)

Defendant.

)TRIAL BY JURY DEMANDED
COMPLAINT

COMES NOW, the Plaintiff, MATTHEW JONES, in pro se, and
complains of the Defendant, TROOP COMMANDER CAPTAIN ALICE
BRUMBLEY of DELAWARE STATE POLICE TROOP 5 Barracks, as follows,
to wit:
1. Plaintiff, MATTHEW JONES, is a resident of the State of
Delaware, presently having an address of 11366 Sussex
Highway, Greenwood, DE 19950.
2. Upon information and belief, Defendant, CAPTAIN ALICE
BRUMBLEY is the Troop Commander of a municipality of
the Delaware State Police, presently doing business at 9265
Public Safety Way, Bridgeville, DE 19933.
3. There are four elements of Negligence. There is a duty of
care for police officers to serve and protect me as I am an
American citizen. There is a breach of this contract whereas
innumerable times the Commander and police officers
ignored crimes, refused to enforce them, and even became
criminals against me, committing hideous acts. They were
the causation of many lifelong and possibly life ending
injuries done to me which they wantonly produced. Their
actions caused damages, some irreparable, and others that
will require large amounts of money to remedy. In an
American employer/employee relationship, the agent or
employee has duties of performance, due care, diligence,
notification, duty to inform the principal, loyalty, and an
accounting of profits. The principal or employer has duties
of compensation, reimbursement, indemnification, and
cooperation. The manager, which would be the Troop

Commander in this Case, would incur unlimited liability in
Tort claims. CAPTAIN BRUMBLEY has been the Troop
Commander of Troop 5 since 1992. In her time as Troop
Commander she has overseen the continuous, neverending
rapes, acts of pedophililia, attempted murder, thefts, and
frauds comitted against me and the murder of my loved
ones. She has negligently, wantonly, and maliciously done
nothing to stop the criminal activity and violence committed
against me by her barracks and has even, at times, lewdly
and pervasively committed criminal acts against me herself.
Prosecution of a crime defined as a "sexual offense" by
section 761, can be commenced at any time. Prosecution of a
class A felony (rape in the 1st degree) may be commenced at
any time.There is no statute of limitations for these sex
offenses in Delaware {Del. Code Title 11 Subsection 205
(e)). The actions of the police against me are continual and
seemingly never ending. In judging the statute of limitations
for various crimes, it is akin and similar to the receiving of
stolen goods. The statute does not begin to run on continuing
offenses until the offense ends, State v. Lodermeier (S.D.
1992). In 1986, shortly after my birth, Delaware State police
officers fondled and molested me at my home in
Farmington, Delaware. They attempted to fit their penises
into my anus but in my infancy it was too small to penetrate.
They mistook our family for poor, said that we were
garbage, and theirs to devour. We lived in a dilapidated
trailer on a dirt road farm. It was where my grandparents
kept their race horses, cows, and other livestock. It began the
sporadic rapes and attacks on me by the police. To support
us, my mother started working at the Division of Child
Support in 1988. She placed me in Country Kids Daycare in
Greenwood, Delaware. Delaware State Police Officers from
the Bridgeville barracks made weekly stops to meet privately
with us children. In those meetings, they raped and beat us.
They also attacked, injured, and killed daycare staff and
citizens who heard about the acts and tried to protect us. This
was the first time that I lost my friends to death, when I was
too young to remember. They were not identity thieves.
Their parents were not identity thieves. It was the intention
of all the victims to lead honest, law abiding lives as
American citizens. I began to develop a paleness. My belly
began to swell. I started to become sick regularly. My hair

I
I
I
I
I

E

I
I
I
I
I

t

I

turned a blondish white. A persistent recurring infection
caused my tonsils need to be removed. My grandparents,
uncle, and mother complained to the police station. When
they got no satisfaction, they called Delaware Senator
Thurman Adams, and State Representative Ben Ewing but
no relief came. Within the first few days of starting
Kindergarten at Woodbridge E.C.E.C. school, I was violently
raped by the Delaware State Police. All of the children in
my section were lined up in the cafeteria and instructed to
pull down our pants and bend over. A crowd of pedophiles
that included the police were lined up in the hallway and
came in and did their bidding. I was raped so violently that I
had to be taken to the hospital. I received stitches in my anus
and had a bruised rib. The police followed us to Nanticoke
Hospital in Seaford, Delaware, and instructed the staff there
to refuse us treatment. When the hospital treated us anyway,
the police attacked it. Mom and I moved into our new home
in Greenwood, Delaware. We had been living next door with
my grandparents, her parents, Cains, for 2 years. On the
night of our open house, after dark, the Delaware State
Police visited our home and raped me. The rape was
exceptionally painful and life threatening because I still had
the stitches from their recent previous rape in my anus. This
began a period where the police raped me at least once
monthly in our home between when I was 5 years old and 12
years old. The rapes usually took place in my mother’s bed
room while she was kept guarded in my bedroom across the
hallway. I was usually handcuffed and forced to bend over a
piece of furniture at the foot of the bed. The intercourse
usually started with me being forced to perform oral sex.
Sometimes the Delaware State Police would bring a very
small amount of crack cocaine and force me to smoke it.
When I started 1st Grade at Woodbridge Elementary School,
in Greenwood, Delaware, I was raped in a similar way to the
year before. This time, all of the 1st and 2nd Graders were
lined up in the auditorium and instructed to pull down our
pants before the police and other pedophiles came into prey
on us. This time my rapists tightly held and jerked the back
of my head and neck, twisting me. I was very afraid that he,
they, were going to paralyze or kill me. Again, I went to the
hospital to get checked out. My hair began to darken. I could
not develop muscle on my chest and legs. I developed

lI
I
I

l
»

allergies. My skin remained pale. I had a rapid pulse rate. I
began to feel dizzy and black out at random times. I
developed a sweat. In 2nd Grade, convinced that the rapes
were never going to end, I attempted suicide. A boy on my
baseball team visited my house and we were playing in the
yard. I said that I wanted to practice catcher while he hit off
the T. When he swung, I moved my head into the path of his
bat. It knocked me unconscious and made a gash above my
left eye. My mother rushed me to Milford Memorial
Hospital, where I received stitches and later, neurological
testing. I have seen other kids get fat all over from being
raped, suffer ghastly wounds from being stabbed and
penetrated with objects, and their hair turns orange from the
effects. I did not want to die that way. My parents divorced.
My dad got weekend custody of me. He introduced me to
U.S. Vice President Biden. My late grandmother Jones
worked for Mr. Biden in one of his early campaigns. I told
the then Senator how I had been getting abused and raped
and that I had tried to kill myself. Senator Biden said that it
is the will of the country to be pedophilic. We are led by the
police, and we must do what they want. When we aren’t led
by the police, we are led by Africa, the future U.S. Vice
President said. In 3rd Grade, my mom wanted me to have
friends and set me up with a family who lived near the
Woodbridge Elementary School where she now worked as a
1st Grade teacher. I was having fun with the two boys who
were about my age for about a semester. My dad became
outraged that I was playing with them. One Saturday, I
refused my dad’s custody and tried to take a stand because
he was abusing me. The police were called to the home of
my new playmates. The State and local police determined
that I had to continue to see my father and could no longer
see my new friends. The police instructed that from now on I
was to spend after school with a different boy at the other
end of the street. His father was a janitor and his mother was
a librarian. His best friend was very poor who lived in a run
down house made of concrete, next door to him. I knew this
friend and did not like him. I did what the police said and I
spent the after school hours with him for the next seven
years until the end of my sophomore year in high school.
The police told my new playmates to report to them about
me at given times and they did, diligently working as youth

i

informants. My dad continued to rape and molest me
sporadically into my teenage years. Many people visited my
house to rape me, have sex with me, saying that they were
told by the police to do so. I had sex with some very
attractive women who said that we were forced by the police
to have sex. I also had to have sex with people of different
professions, boys and girls from other Delaware schools,
students and adults from out of state, diseased people, and
clergy. I can remember three different short term prostitution
stints that I had to endure between 2nd and 7th Grades. I
spent the Winter Breaks of 3rd Grade-6th Grade in the
Milford Memorial Hospital, because each of those years, the
police visited my house at night and violently raped me. I
was always hooked to an IV. I always spent more than a
week in the hospital. The churches of Bridgeville Church of
God and Greenwood United Methodist prayed for me. More
than once, I was read my Last Rights. Nurses and doctors
told me that it was okay to “let go and die.” My fever was
always over 103 degrees Fahrenheit. I never got to enjoy
Christmas as a kid, for sake of the illnesses caused by the
Delaware State Police raping me. In 4th Grade, mom bought
me a dog. I house trained it and trained it to walk without a
leash. It was sadly struck and killed, crossing the highway, in
front of our home, because it chased a bitch in heat. On
several occasions, a State Trooper parked his vehicle across
the dual highway and blew a dog whistle while my dog and I
were playing in the yard. This year was the second time in
my life that I lost all of my friends to death by violent rapes
by the police and others. Dr. Luis David, M.D. Pediatrician
of Milford, had to surgically remove my sphincter because
he determined that it was too badly damaged and I was
unable to have normal bowel movements. I worked hard to
succeed despite my weakened health and the juggernaut that
I was up against. I fed the pigs in the morning and at night at
my grandparents farm next door. I pulled the weeds around
the house and in the garden. I worked with the pony they
bought me. I got good grades in school. I made the Honor
Roll in 28 consecutive marking periods between 3rd Grade
and Ninth Grade. I scored in the top 1% of Delaware
students on the State Test in 3rd, 5th, 8th, and 10th Grades. I
won the President’s Education Award in 1998.1 got to meet
President Clinton and Vice President Gore. I met with them

privately at the mayor’s house in Millsboro, Delaware. I told
them that the police had always been raping and beating me.
They said they would stop it, but it continued. In 7th Grade,
school shifted to Bridgeville, at the Woodbridge Middle and
High School. The school had hired two new female 7th
Grade teachers who were on my schedule. I entered puberty.
I had sex with the two teachers at different times, early in the
school year. My emotions bested me and I became irrational,
jealous seeing them with other men and other students. The
police intervened and spoke to my parents after I made a
lewd phone call to both teachers and wrote a sexually
explicit letter to one. I was told to avoid them from now on.
They continued to teach. My grandfather Noah Cain died
from cancer on Christmas Eve of 8th Grade. He had been
battling it painfully for four years. Local Senator Adams and
Representative Ewing visited him regularly. I was often
there. On more than one occasion they raped me. They said
it was the will of the police. In 9th Grade, my body hair
grew in. Hair fell off of my legs in patches. It did not grow
on my chest. A beard did not grow, only dark hair on my
neck. My mustache grew in orange and white. I was getting
fatter. The hair on my head became a mix of brown, black,
red, and gray. I was bom a blond. Police now had a presence
in the school because of the Columbine shootings. Some
police officers attended school as students with fake
identifications. They spread a rumor that I should be avoided
sexually. They said that I had sexually transmitted diseases
and am violent. They ridiculed, beat, raped, and took for
their own, girls who dated me. They plagued the entire high
school. Before long, they reduced our class population to 86.
Everyone, except me and a couple other boys, were identity
thieves. The female population was too short to date, pale
white, and mostly foreign. There were shootings and bomb
threats. The police crashed and terrorized numerous parentsupervised parties in middle school and high school. Many
lives were mined by obscene charges. Many were beaten and
raped. High school Prom’s average age male was 35 years
old. Other social events resembled NAMBI meetings. In
10th Grade, I transferred to Milford High School to see if it
brought a change. The police followed me there, and a high
school that was peaceful before I came, now had violent
rapes, shootings, and bomb threats. I got a B in Drivers Ed

I
I

and got my license. 11th Grade was uneventful. It was the
first year that I was unpopular with the ladies and I struggled
to find a date. I worked at Peebles Department Store in
Milford, and mostly hung out with the new male friends at
Milford that I had made. I was awarded a scholarship for my
performance on the 10th Grade Delaware State Test (DSTP).
I spent most nights at a pool hall called Billiards in
Rehoboth Beach. I didn’t want to be home. My mother had
moved in, and become engaged to, a low class drunken
construction worker and they often fought. The police
stopped at the pool hall at least twice a week, looked for me,
and talked to the owner before they left. I filed a Civil
Complaint in the Superior Court in Georgetown. I told this
story, that I had been raped and attacked all of my life by the
Bridgeville State Police. It was Dismissed citing that I was
underage and could not file. I submitted my complaint again,
pleading for emancipation. This time, my claims were called
delusional, and I was told that the police are totally immune,
above the law, and protected by sovereign immunity, Nietzke
v. Williams, and the 11th Amendment. In 12th Grade, I did
not attend high school. I took my classes at the Georgetown
Delaware Technical and Community College. I had been
taking one class per week there, since 8th Grade, as a
member of the Academic Challenge Program. This year, I
took a full schedule. When I returned to high school, for a
Senior steak lunch, I was attacked. A barrage of almost 30
students: gang members, enemy cliques, and members of the
football team all tried to hold me down and beat me. The
police separated us, but anally raped me before they left.
With the exception of one more instance, that occurred when
I was being released from a hospital, years later,-this was the
end of the rapes. The scars from the rapes and beatings
show over my whole body. I have had a persistent cough
since Kindergarten. Hair will not grow fully on my face and
chest. I have lost hair on my head and legs. I have gained
over 200 pounds, which has taken me more than six years to
lose. I have been at risk for diabetes, heart disease, stroke,
and sexually transmitted diseases. As an adult, I have filed
civilly to sue the police for rape and attempted murder, in the
past. My cases were dismissed, deciding that I failed to state
a claim for which relief could be granted. I have since taken
up Paralegal studies at Del Tech and completed two

I
I
I
I

►
I
I
I
I
I

I

:

semesters. I hope now that my lawsuit is feasible for relief. I
am told, although I don’t agree, that a lawsuit must be
written in this form to be accepted by the court/The National
Security Agency and IBM created a total and constant
nationwide surveillance of all United States citizens in 1958.
My entire life has been saved on their satellites for viewing
mainly, if ever needed, by government agents. With the
permission of the Court, I would like to Discover the
materials necessary for viewing my life and the actual
recordings from these groups. The evidence could give the
exact number of times that I was illegally sexually or
otherwise encountered by the police. It would take stem cells
to heal me from my life of persecution. Medicine like that is
valued at several million dollars. The U.S. Code civil
remedy for a sexual violation is $150,000 per time, per
violation, 18 U.S. Code § 2255. At a minimum, the police
raped me 84 times between 3rd Grade and 9th grade, 72
times between 4 years old and 3rd Grade, and sporadically at
various other times. Nothing can bring back to life my late
loved ones, family, and friends who were murdered via
sexual abuse, and other ways, by the police. I have never had
the benefit of receiving help from the State Police, nor have
they made any effort to rectify, make amends, dr grant relief
for what they have done to me. There is no statute of
limitations for violations of civil rights under 42 U.S. Code
§ 1983. The actions of the police against me are continual
and seemingly never ending. In judging the statute of
limitations for various crimes, it is akin and similar to the
receiving of stolen goods. The statute does not begin to run
on continuing offenses until the offense ends, State v.
Lodermeier (S.D. 1992). The U.S. Supreme Court ruled in
Ex Parte Young (1908) 209 U.S. 123 that police officers and
precincts may be sued. Martin v. Voinovich 840 E Supp.
1175 (1993) and Clinton v. Jones, 520 U.S. 681 (1997)
maintained that government employees, even the highest
ranking, are not immune to being held to our laws. 28 U.S.
Code § 2674, 28 U.S. Code § 1442, and Delaware Code Title
10 Chapter 40 (c) establish that government employees
including police officers and police stations can be held
liable to tort claims, Article 1 Section 9 of the Delaware
Constitution explicitly writes that the State can be sued. It is
supported by Delaware Case Law in Doe v. Cates 499 A. 2d

